No. 20-888
IN THE SUPREME COURT OF THE UNITED STATES

ABDUL RAZAK ALI,
Petitioner,
v.

DONALD J. TRUMP, ET AL.,
Respondent.

MOTION TO DEFER CONSIDERATION
OF THE PETITION FOR CERTIORARI
Pursuant to Rule 21 of the Rules of this Court, Petitioner Abdul Razak Ali,
respectfully moves this Court to defer consideration of his Petition for Certiorari,
currently scheduled for consideration at the Court's May 13, 2021 conference, until
the D.C. Circuit sitting en bane, decides the related petition in Al Hela u. Trump, 972
F.3rd 120. In support of this motion, Mr. Ali states the following:

On April 23rd, 2021 the court of appeals for the D.C. Circuit, sitting en bane,
vacated the panel opinion in Al-Hela u. Trump 972 F. 3rd 120. (The order granting
rehearing en bane is attached hereto.) That case is now scheduled for rehearing en
bane on the sole question of "whether the petitioner-appellate [Al Hela] is entitled to

relief on his claims under the Due Process Clause." Al Hela had raised both substantive
and procedural due process claim; both set of claims were similar to those raised by
Petitioner Ali. (See Al Hela, 972 F3rd at 140-50 (detailing claims).

As the D.C. Circuit is the only Circuit to hear Guantanamo cases and in light
of the fact that the question presented to this Court by Petitioner is effectively identical
to the question now pending rehearing en bane in the court of appeals, Petitioner
requests that this Court hold his Petition for Certiorari, deferring consideration of it
until a resolution of Al Hela by the D.C. Circuit. See Stephen M. Shapiro, et al.,
Supreme Court P1·actice, §5.9 (11th Ed. 2019)(Citing cases).
The government opposes this motion.

Respectfully submitted,

/J.t0Ai75~
Attorney for Petitioner
H. CANDACE GORMAN
Law office of H. Candace Gorman
1509 W. Berwyn Ave.
Suite 207
,
Chicago, 11. 60640.

2

NOTICE OF FILING AND CERTIFICATE OF SERVICE

A copy of this Motion to defer consideration of the petition for Certiorari has
been e-filed this 27th day of April, 2021 with an original and two copies being sent by
Priority Mail Express to this Court. A copy is also tendered by email and by US Mail
to:

Benjamin W. Snyder

Assistant to the Solicitor General
U.S. Department of Justice
950 Pennsylvania Avenue NW
Washington, D.C. 20530
{202) 514-2251 (office)
(202) 353-5493 (mobile)
Benjamin.Snyder@usdoj.gov

-----Law office of H. Candace Gorman
1509 W. Berwyn, Suite 207
Chicago Il. 60640
312.427.2313

3

Al-Hela en bane order
April23, 2021

USCA Case #19-5079

Document #1895855

Filed: 04/23/2021

Page 1 of 2

~nit£.b ~tat£s <tiourt of J\pp£als
fOR THE DISTRICT OF COLUMBIA CIRCUIT

No. 19-5079

September Term, 2020
1:05-cv-01 048-UNA

Filed On: April 23, 2021
Abdulsalam Ali Abdulrahman AI-Hela,
Detainee Camp Delta, also known as Abd
AI-Salam Ali AI-Hila and Abdulwahab Ali
Abdulrahman AI-Hela, As Next Friend of
Abdulsalam Ali Abdulrahman AI-Hela,
Appellants

v.
Joseph R. Biden, Jr., President of the United
States, et al.,
Appellees

BEFORE:

Srinivasan, Chief Judge; and Henderson, Rogers, Tatel, Millett,
Pillard, Wilkins, Katsas*, Rao, and Walker, Circuit Judges

ORDER
Upon consideration of petitioner-appellant Abdulsalam Ali Abdulrahman AIHela's petition for rehearing en bane, the response thereto, and the vote in favor of the
petition by a majority of judges eligible to participate, it is
ORDERED that the petition for rehearing en bane be granted. It is
FURTHER ORDERED that the judgment filed August 28, 2020, be vacated. It is
FURTHER ORDERED that this case be scheduled for oral argument before the
en bane court on Thursday, September 30, 2021, at 9:30a.m. It is

* Circuit Judge Katsas did not participate in this matter.

USCA Case #19-5079

Document #1895855

Filed: 04/23/2021

Page 2 of 2

~nit.eb ~ta:t.es Qlourt of J\pp.ea:ls
FOR THE DISTRICT OF COLUMBIA CIRCUIT

No. 19-5079

September Term, 2020

FURTHER ORDERED that, in addition to filing briefs electronically, the parties
file 30 paper copies of each of their briefs and appendix, in accordance with the
following schedule:
Brief for Petitioner-Appellant

June 2, 2021

Appendix

June 2, 2021

Brief(s) for Amici Curiae, if any
in support of Petitioner-Appellant

June 9, 2021

Brief for Respondents

July 9, 2021

Brief(s) for Amici Curiae, if any
in support of Respondents

July 16, 2021

Reply Brief for Petitioner-Appellant

August6,2021

The parties are directed to limit briefing to the question of whether petitionerappellant is entitled to relief on his claims under the Due Process Clause.
To enhance the clarity of their briefs, the parties are urged to limit the use of
abbreviations, including acronyms. While acronyms may be used for entities and
statutes with widely recognized initials, briefs should not contain acronyms that are not
widely known. See D.C. Circuit Handbook of Practice and Internal Procedures 41
(2017); Notice Regarding Use of Acronyms (D.C. Cir. Jan. 26, 201 0).
Because the briefing schedule is keyed to the date of oral argument, the court
will grant requests for extension of time limits only for extraordinarily compelling
reasons. The briefs and appendix must contain the date the case is scheduled for oral
argument at the top of the cover. See D.C. Cir. Rule 28(a)(8).
A separate order will issue allocating oral argument time.
Per Curiam

FOR THE COURT:
Mark J. Langer, Clerk
BY:

Page 2

/s/
Michael C. McGrail
Deputy Clerk

